No. 20-1223
IN THE

'upreme Court of tbe tinttett i§tate0
JOHNSON & JOHNSON and
JOHNSON & JOHNSON CONSUMER INC.,
Petitioners,
v.
GAIL L. INGHAM, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
Missouri Court of Appeals for the
Eastern District

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,984 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 11, 2021.

Cohn Casey Plbgan
Wilson-Epes Printing Co., Inc.

